APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(August 14, 2019) . . . . . . . . . . . . . App. 1
Appendix B Opinion
and
Order Granting
Defendants’ Motion for Summary
Judgment and Denying Plaintiffs’
Motion for Summary Judgment and
Judgment in the United States
District Court for the Eastern District
of Michigan, Southern Division
(August 1, 2018) . . . . . . . . . . . . . App. 29
Appendix C Order in the United States Court of
Appeals for the Sixth Circuit Denying
Rehearing and Rehearing En Banc
(September 10, 2019) . . . . . . . . . App. 53

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-1874
[Filed August 14, 2019]
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0196p.06
____________________________________
KAMAL ANWIYA YOUKHANNA;
)
WAFA CATCHO; MAREY JABBO;
)
DEBI RRASI; JEFFREY NORGROVE;
)
MEGAN MCHUGH,
)
)
Plaintiffs-Appellants,
)
)
v.
)
)
CITY OF STERLING HEIGHTS;
)
MICHAEL C. TAYLOR, individually
)
and in his official capacity as Mayor, )
City of Sterling Heights, Michigan,
)
)
Defendants-Appellees.
)
_______________________________
Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.

App. 2
No. 2:17-cv-10787—Gershwin A. Drain,
District Judge.
Argued: April 30, 2019
Decided and Filed: August 14, 2019
Before: MERRITT, MOORE, and WHITE, Circuit
Judges.
_________________
COUNSEL
ARGUED: Robert Joseph Muise, AMERICAN
FREEDOM LAW CENTER, Ann Arbor, Michigan, for
Appellants. Marc D. Kaszubski, O’REILLY RANCILIO
P.C., Sterling Heights, Michigan, for Appellees.
ON BRIEF: Robert Joseph Muise, AMERICAN
FREEDOM LAW CENTER, Ann Arbor, Michigan,
David Yerushalmi, AMERICAN FREEDOM LAW
CENTER, Washington, D.C., for Appellants. Marc D.
Kaszubski, Nathan D. Petrusak, O’REILLY RANCILIO
P.C., Sterling Heights, Michigan, for Appellees.
OPINION
KAREN NELSON MOORE, Circuit Judge. This
case arises from the settlement of another case. In
2015, the American Islamic Community Center (AICC)
applied for zoning permission to build a mosque in
Sterling Heights, Michigan. The City’s planning
commission denied AICC’s request, and AICC sued.
The City decided to settle the lawsuit, which alleged
violations of the Religious Land Use and
Institutionalized Persons Act (RLUIPA) and the First
Amendment, and it negotiated a consent judgment that
allowed AICC to build the mosque. This lawsuit

App. 3
challenges the validity of that consent judgment, along
with the legality of actions taken by the City and the
Mayor during the City Council meeting at which the
consent judgment was approved. The district court
granted defendants’ motion for summary judgment,
and we AFFIRM.
I. BACKGROUND
AICC’s efforts to build a mosque on Fifteen Mile
Road in Sterling Heights, Michigan spawned two
rounds of litigation. This is the second.
A. The Sterling Heights Planning Commission
Denies AICC’s Zoning Application
On July 8, 2015, AICC applied for permission to
build a mosque on Fifteen Mile Road in a neighborhood
that is otherwise zoned for residential use. Appellant
Br. at 4–5; Youkhanna v. City of Sterling Heights, 332
F. Supp. 3d 1058, 1062 (E.D. Mich. 2018). The Sterling
Heights Planning Commission met in August to
consider AICC’s application. Youkhanna, 332 F. Supp.
3d at 1062. Despite a city planner’s testimony that the
mosque complied with all zoning criteria and was
appropriately placed on a major thoroughfare, the
proposal faced resistance and its approval was
postponed. Id. at 1062–63. One month later, the
Commission voted down AICC’s updated application,
giving the following reasons:
• “the location and height of the mosque
interferes with and discourages the
appropriate development and use of adjacent
land and buildings,

App. 4
• lack of size compatibility with established
long term development patterns,
• a likely shortage of off-street parking when
the principal and ancillary uses are
combined,
• additional parking spaces are required,
• and the scale of the mosque is not
harmonious with the neighboring areas.”
Id.; R. 67-5 (Sept. 2015 Planning Commission Staff
Report at 5) (Page ID #1658).
B. AICC Sues, and Sterling Heights Settles
AICC then sued the City, alleging violations of
RLUIPA, 42 U.S.C. § 2000cc et seq., and the First
Amendment. Youkhanna, 332 F. Supp. 3d at 1063. The
Department of Justice also opened an investigation
into the City’s denial of AICC’s application. The DOJ
alleged that Jeffrey Norgrove, the commissioner who
moved to deny AICC’s application, had publicly

App. 5
demonstrated anti-Muslim bias1 and had “improperly
influenced the other Commissioners.” Id.
The City denied wrongdoing. Id. at 1064.
Eventually, the parties (AICC and Sterling Heights)
reached a settlement giving AICC “special land use
approval” to build the mosque, subject to certain
conditions, and the district court entered a consent
judgment. R. 67-20 (Consent Judgment at 3)
(Page ID #1832).
In order to sign the settlement, however, the City
Council had to vote its approval. Youkhanna, 332
F. Supp. 3d at 1064. The meeting during which the
Council considered the settlement, which was recorded
on video, was open to the public and well attended.
Video at 1:37:49–41:02 (Mayor Taylor: “We have 181
seats, I believe, in this Council Chamber; every seat is
taken (save for maybe one or two) and we also have
overflow of at least 25 to 30 or more in the vestibule.”).
The media were in attendance also, and the meeting

1

“The DOJ further alleged that Plaintiff Norgrove attended an
anti-mosque protest on August 30, 2015 and improperly influenced
the other Commissioners due to his alleged bias against Muslims.
In addition, the DOJ asserted that Plaintiff Norgrove opposed the
construction of a different mosque in 2011 and posted anti-Islamic
statements on his social media stating: ‘Oh no the terrorists are
gonna attack, according to the media this weekend. Come to the
Detroit area. They don’t [sic] bomb their revenue source.’ The DOJ
also claimed that Norgrove shared a picture of a pig with the
statement ‘share this pig if your [sic] not celebrating Ramadan
[sic].’ Finally, the DOJ maintained that Norgrove contacted
Commissioners between the first and second meetings and
informed them that he would be making a motion to deny the
application.” Youkhanna, 332 F. Supp. 3d at 1063–64.

App. 6
was streamed on the City’s website and YouTube
channel and was broadcast on live television.
Youkhanna, 332 F. Supp. 3d at 1068.
After the announcement that the Council would be
taking up the agenda item of the consent judgment, the
attorney for the City, Ann McClorey McLaughlin,
explained the terms of the agreement and the City’s
reasons for settling the case. Video at 1:42:40. Mayor
Taylor then said the floor would open to public
comment, although comments would be limited to two
minutes and subject to the following ground rules:
Speakers will be required to stay on point. Your
comments during this agenda item must be
related to this agenda item. This agenda item is
to consider settlements, consent order, and
consent judgments in these two cases . . . . If you
fail to abide by the Council’s Rules, you will be
called out of order . . . and you will be asked to
go back to your seat. If you do not go back to
your seat, we will recess and you will be
removed from the auditorium. So please don’t
make us do that . . . . Outbursts from the
audience can be grounds for being called out of
order . . . . So again, let’s just please be as
respectful as we can of each person. We do not
need any comments about anybody’s religion,
that is not the purpose of this meeting tonight
and any comments regarding other religions or
disagreements with religions will be called out of
order. It’s simply not relevant to what’s going on
tonight.
Video at 1:37:00–50:00.

App. 7
Public comment then began, and many spoke
passionately about the issue. Some people voiced
concerns about issues such as traffic and noise; others
disparaged Islam and AICC, calling them terrorists or
terrorist-funded and saying that they wanted to
“destroy the American Constitution.” Id. at 2:00:41,
2:21:15. Whenever someone made an irrelevant
comment, Mayor Taylor called that speaker out of
order. E.g., id. at 2:21:15.
Comments and deliberation were punctuated by
audience outbursts, some of which necessitated a
recess to restore order. See Youkhanna, 332 F. Supp. 3d
at 1065 (“Despite Defendant Taylor’s ground rules,
there were twenty-six outbursts by audience members,
both individually and as a body, forcing multiple
recesses.”). Due to the outbursts, Mayor Taylor cleared
the chamber of all spectators, except the press, so that
the Council could complete deliberation. (The
spectators were able to remain in the vestibule.) R. 6925 (WDIV Video No. 1).2 The Council voted to settle the
case, and the consent judgment was entered.
C. Plaintiffs Challenge the Settlement
On March 13, 2017, plaintiffs filed suit in the
United States District Court for the Eastern District of
Michigan, seeking a judgment declaring the consent
judgment invalid and unenforceable, along with
nominal damages, attorney’s fees, and expenses. R. 1
(Compl. at 33) (Page ID #33). Plaintiffs assert seven
claims for relief. Five are constitutional and range from
2

https://www.clickondetroit.com/news/sterling-heights-acceptslawsuit-settlement-in-mosque-controversy.

App. 8
First Amendment and Equal Protection Clause
challenges to the Mayor’s restrictions on public
comments at the Council meeting (claims two and five),
a Fourth Amendment challenge to the removal of
plaintiff Debi Rrasi from the meeting (claim four), an
Establishment Clause challenge to defendants’actions
in toto (claim three), and a Due Process Clause
challenge to defendants’ “impermissibl[e]
circumventi[on of] procedural protections, including the
failure to provide proper notice and an opportunity to
be heard” (claim six). R. 1 (Compl. at 26–32) (Page ID
#26–32). The seventh claim asserts a violation of the
Michigan Open Meetings Act. Id. at 32 (Page ID #32).
The first claim, however, is odd. Plaintiffs describe
the ground for their first claim for relief as
“Declaratory Judgment Act—Unlawful Consent
Judgment.” Id. at 26. Of course, the Declaratory
Judgment Act is not a cause of action. 28 U.S.C. § 2201.
Rather, it makes available a declaratory judgment “[i]n
a case of actual controversy.” Id. Construed generously,
plaintiffs’ first claim asserts violations of the Sterling
Heights Zoning Ordinance and the Michigan Zoning
Enabling Act and seeks a declaratory judgment related
to those violations. R. 1 (Compl. at 26) (Page ID #26).
In June 2017, the district court denied plaintiffs a
preliminary injunction. After cross-motions for
summary judgment, the district court granted
defendants’ motion and entered a judgment in favor of
defendants. R. 42 (Order Den. Mot. for Prelim. Inj. at
26) (Page ID #1273); R. 89 (Op. and Order Granting
Defs.’ Mot. for Summ. J. at 22) (Page ID #4464). This
appeal followed.

App. 9
II. DISCUSSION
We review the grant of summary judgment de novo.
Bible Believers v. Wayne County, 805 F.3d 228, 242
(6th Cir. 2015) (en banc). Summary judgment is
appropriate if “there is no genuine dispute as to any
material fact” to present to a jury. FED. R. CIV. P. 56(a).
When deciding a motion for summary judgment, we do
not engage in “jury functions” such as making
credibility determinations and weighing the evidence.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255
(1986). If there remain any material factual
disagreements as to a particular legal claim, that claim
must be submitted to a jury. Id.
A. Standing
First, we must examine whether plaintiffs have
standing. Standing is apparent as to some of plaintiffs’
claims: for example, the First Amendment and Fourth
Amendment claims. Standing with respect to the
claims challenging the validity of the consent
judgment, however, was challenged below and
warrants brief discussion.3

3

Although not briefed on appeal or discussed in the district court
opinion, defendants and AICC did challenge plaintiffs’ standing as
to their claims regarding the validity of the consent judgment. This
issue was first raised by AICC in an amicus brief, following which
the parties briefed the issue. R. 27 (Amicus Br. at 8)
(Page ID #1083); R. 28 (Resp. to Amicus Br. at 4) (Page ID #1116);
R. 47 (Defs.’ Supp. Br. on Standing) (Page ID #1282); R. 50 (Pls.’
Supp. Br. on Standing) (Page ID #1405); R. 62 (Defs.’ Second Supp.
Br. on Standing) (Page ID #1539). The district court flagged this
issue for later discussion in its opinion denying plaintiffs’ motion
for a preliminary injunction, but it did not discuss the issue in its

App. 10
Federal courts have authority to decide only “cases”
and “controversies.”4 U.S. Const. art. III, § 2. For
standing to exist, a plaintiff must “allege an actual or
imminent injury that is traceable to the defendant and
redressable by the court.” Crawford v. United States
Dep’ of Treasury, 868 F.3d 438, 452 (6th Cir. 2017). We
have no trouble finding that those plaintiffs who reside
near the site of the mosque have standing to challenge
the validity of the consent decree. The injury they
allege is a particularized effect on their properties
caused by the consent decree; a declaration that the
consent decree is invalid, or an injunction barring its
operation, would remedy that injury. See Goode v. City
of Philadelphia, 539 F.3d 311, 323–24 (3d Cir. 2008)
(“[N]eighbors surely would be impacted directly by a
large public facility located near them and accordingly
would suffer a particularized injury from the operation
of the facility very different from that of the general
public.”). Because at least some of the plaintiffs have
standing to bring the claims in this case, we consider
the merits.

opinion granting summary judgment in defendants’ favor. R. 42
(Order Den. Mot. for Prelim. Inj. at 2 n.1) (Page ID #1249). Of
course, regardless of whether the issue was raised below or on
appeal, we must determine whether standing exists.
4

Plaintiffs seek a declaratory judgment, and so we note that the
Declaratory Judgment Act applies only to “case[s] of actual
controversy,” thus preserving the constitutionality of the Act. 28
U.S.C. § 2201; Aetna Life Ins. Co. v. Haworth, 300 U.S. 227,
239–40 (1937).

App. 11
B. The Validity of the Consent Judgment—The
Due-Process and State-Law Claims
We discuss first whether the consent judgment
must be invalidated because the City Council failed to
follow state and local law when it voted to sign the
agreement. This discussion addresses both the
“declaratory judgment claim”5 and the due-process
claim. Both claims fail.
We turn first to the “declaratory judgment claim,”
better understood as the claim that the City violated its
Zoning Ordinance and the Michigan Zoning Enabling
Act by the manner in which it approved the settlement.
Plaintiffs’ argument on appeal is that the City Council
failed to consider and make appropriate findings about
a variety of factors listed in the Sterling Heights
Zoning Ordinance. This, they claim, dooms the consent
judgment.

5

As discussed above, plaintiffs do not articulate what the
underlying controversy is for which they seek a declaratory
judgment. It seems that the underlying controversy is whether the
Council violated the Sterling Heights Zoning Ordinance and the
Michigan Zoning Enabling Act. If so, we have doubts about the
soundness of this claim. It is unclear (and plaintiffs never briefed)
whether the Enabling Act is enforceable by individuals. The
Zoning Ordinance allows “[a] person who is aggrieved by a final
decision of the . . . City Council” to appeal the decision within 30
days of the final decision. Zoning Ordinance § 25.03(F). It is far
from clear whether plaintiffs qualify as “aggrieved,” whether they
appealed using the Zoning Ordinance process, and what, if any, the
effect of failing to do so would be. Because plaintiffs’ claims suffer
from another fundamental flaw we need not venture into this
territory, but we note that the “declaratory judgment claim” might
fail for other reasons.

App. 12
Both parties ask us to examine the Zoning
Ordinance to discern whether there is a distinction
between the terms “reviewing authority”and
“approving authority.” We decline to do so. Plaintiffs
accuse the City of procedural errors it did not commit;
therefore, even assuming plaintiffs’ interpretation of
the Ordinance is correct, their claims fail.
The first alleged procedural error is a failure to
consider the Zoning Ordinance’s criteria for approval of
a permit to build a house of worship in a residential
area. These criteria are what one would expect from a
zoning ordinance. For example, the criteria demand
consideration of “harmony with the appropriate and
orderly development of the surrounding neighborhood,”
traffic patterns and parking, the location and height of
the building, and the new building’s impact on “public
health, safety and welfare” Zoning Ordinance § 25.02.
It is abundantly clear from the record that the City
Council did consider these and all other relevant
criteria. Context is important. The Planning
Commission rejected AICC’s application because it
failed to comply, in the Commission’s opinion, with
certain criteria regulating noise, size and height of the
building, parking, and traffic. These are exactly the
issues the consent judgment addressed by restricting
the height of the mosque, stipulating to lot parking
only and shuttles for large events, and banning outside
sound projection. R. 67-20 (Consent Judgment at 3-7)
(Page ID #1832–36).6 The Council considered the terms
6

As the district court opinion explains, the Commission’s denial of
the permit based on traffic was unsupported by the record; the
testimony at both Planning Commission meetings was that the

App. 13
of the settlement before approving it, just as it
considered recent large developments in the area that
were approved without issue by the Commission, such
as a nearby 800-home development. Video at 3:19:20.
There is no question that the City Council considered
the relevant criteria before voting, and so plaintiffs’
assignment of error on this ground is fruitless.
Equally unavailing is plaintiffs’ argument that the
Council erred by failing to make findings of fact as
required by the Sterling Heights Zoning Ordinance and
the Michigan Zoning Enabling Act, MICH. COMP. LAWS
§ 125.3101 et seq. The Zoning Ordinance says that, once
a special approval land use is granted, “[t]he decision
shall be incorporated in a statement of findings and
conclusions which specifies the basis for the decision
and any conditions imposed.” Zoning Ordinance
§ 25.03(B)(1). In a similar vein, the Enabling Act says
that “[t]he decision on a special land use shall be
incorporated in a statement of findings and conclusions
relative to the special land use which specifies the basis
for the decision and any conditions imposed.” MICH.
COMP. LAWS § 125.3502(4).
Again, plaintiffs argue that defendants failed to
clear these procedural hurdles; again, plaintiffs’
arguments fail because defendants fulfilled their
procedural obligations. During deliberation, Council
members and Mayor Taylor considered and made

mosque was to be on a major thoroughfare (as opposed to the
smaller, secondary thoroughfare that the statute requires as a
minimum), and so traffic increase was not a valid basis for
rejecting the application. Youkhanna, 332 F. Supp. 3d at 1063.

App. 14
findings on the relevant criteria, such as “parking,
traffic and overall size of the dome and spires,” before
voting. Feb. 21, 2017 Meeting Minutes at 37–40.7 And,
if the statement of findings must be in writing, the
written minutes containing the findings were adopted
and published after the following City Council meeting.
Id. We can find no authority requiring the findings to
take a particular form, nor have plaintiffs pointed us to
anything indicating these written findings are
insufficient.
The discussion above resolves plaintiffs’ due-process
arguments also. Even if plaintiffs have a valid property
interest and even if the procedures outlined by state
law were constitutionally required, the fact that
defendants indisputably complied with each procedure
means that this claim fails.8
C. The First Amendment and Equal Protection
Clause Claims
Plaintiffs’ next set of claims stems from the
Council’s restrictions on public comment during the
debate over the approval of the consent decree. Two
restrictions are relevant here. First, the Mayor
7

https://www.sterling-heights.net/AgendaCenter/ViewFile/
Item/444?fileID=2766.

8

Plaintiffs filed a motion asking us to take judicial notice of the
fact that in September 2018 plaintiff Debi Rrasi became the owner
of the property she had previously been occupying and renting.
They argue plaintiff Rrasi’s subsequent purchase of her home
insulates their due-process claim from the argument that no
plaintiff had a cognizable property interest. Plaintiffs’ due-process
claim fails on other grounds, and so we deny the motion.

App. 15
required comments to be relevant to the agenda item
being considered: the approval of a settlement that
would give zoning permission to AICC to build a
mosque. Mayor Taylor reiterated this rule before
opening the floor to comments:
Speakers will be required to stay on point. Your
comments during this agenda item must be
related to this agenda item. This agenda item is
to consider settlements, consent order, and
consent judgments in these two cases . . . . We do
not need any comments about anybody’s
religion, that is not the purpose of this meeting
tonight and any comments regarding other
religions or disagreements with religions will be
called out of order. It’s simply not relevant to
what’s going on tonight.
Video at 1:37:00–50:00 (emphasis added).
This was not, as plaintiffs would have, a ban on
talking about religion. This is clear from the fact that
comments mentioning religion—including comments
mentioning Islam specifically—were allowed when they
were relevant to zoning issues. For example, a person
stood up to say that he had lived near a mosque
previously and that mosque had hosted celebrations for
a holiday that involved noise and blocking of the
streets. Video at 2:47:45. He asked whether the Council
had considered such holidays in the settlement. Id.
This comment was not interrupted, and the speaker
was not called out of order. Another speaker questioned
why the mosque was needed, given the number in the
area. Id. at 2:38:45. Again, this speaker was neither
warned nor called out of order. Finally, at least one

App. 16
speaker was called out of order on relevance grounds
for a comment wholly unrelated to religion: explaining
the process for running for City Council. Id. at 2:55:54.
In sum, Mayor Taylor’s admonition, viewed in context,
limited comments to those relevant to the issue being
considered; the mention of religion was “just a
preemptive warning” against irrelevant comments
about religion. See R. 69-14 (Taylor Dep. at 52–53)
(Page ID #2585–86). “Religion” was not “off-limits for
the citizen speakers” if it was relevant to zoning
considerations. Appellants Br. at 14.
The second rule enforced at the meeting was a rule
against attacking persons or institutions. Although
Mayor Taylor did not announce this rule before public
comment, he did enforce it. E.g. R. 69-14 (Taylor Dep.
at 53, 59) (Page ID #2586, 2592).
Plaintiffs argue that the above restrictions were
content- and viewpoint-based prior restraints on speech
that violated their First Amendment and Equal
Protection Clause rights. Appellants Br. at 35.
Specifically, Plaintiffs McHugh, Catcho, Rrasi,
Youkhanna, and Jabbo claim that, although they spoke
at the Council meeting, they did not make comments
they otherwise would have made because of Mayor
Taylor’s preliminary admonition.9 R. 67-18 (Jabbo Dep.
at 37) (Page ID #1819); R. 67-21 (McHugh Decl. at 2)
(Page ID #1851); R. 67-22 (Youkhanna Decl. at 2)
9

Plaintiffs do not specify whether their claim is facial or asapplied, but they argue throughout their briefs that the restriction
violated plaintiffs’ rights specifically, and they do not address
factors relevant to a claim of facial unconstitutionality. We
therefore interpret their claims as as-applied challenges.

App. 17
(Page ID #1855); R. 67-23 (Rrasi Decl. at 2) (Page ID
#1859); R. 67-24 (Catcho Decl. at 2) (Page ID #1863).
In order to assess this restriction on speech, we
must first determine what type of forum the Council
meeting was. A City Council meeting is not a
“traditional public for[um] like parks and streets,” the
sort of setting in which “the government’s regulatory
powers are at their weakest.” Lowery v. Jefferson Cty.
Bd. of Educ., 586 F.3d 427, 432 (6th Cir. 2009). Rather,
City Council meetings, like the school-board meeting at
issue in Lowery, “cannot accommodate the sort of
uninhibited, unstructured speech that characterizes a
public park. That is why courts call this sort of forum
a ‘designated’ and ‘limited’ public forum: ‘designated’
because the government has ‘intentionally open[ed]’ it
‘for public discourse,’ and ‘limited’ because ‘the State is
not required to . . . allow persons to engage in every
type of speech’ in the forum.” Id. (internal citations
omitted).
In a limited public forum, the government can
impose reasonable restrictions based on speech content,
but it cannot engage in viewpoint discrimination. The
Supreme Court explained this in Rosenberger v. Rector
and Visitors of the University of Virginia, 515 U.S. 819
(1995):
The necessities of confining a forum to the
limited and legitimate purposes for which it was
created may justify the State in reserving it for
certain groups or for the discussion of certain
topics. Once it has opened a limited forum,
however, the State must respect the lawful
boundaries it has itself set. The State may not

App. 18
exclude speech where its distinction is not
“reasonable in light of the purpose served by the
forum,” nor may it discriminate against speech
on the basis of its viewpoint. Thus, in
determining whether the State is acting to
preserve the limits of the forum it has created so
that the exclusion of a class of speech is
legitimate, we have observed a distinction
between, on the one hand, content
discrimination, which may be permissible if it
preserves the purposes of that limited forum,
and, on the other hand, viewpoint
discrimination, which is presumed
impermissible when directed against speech
otherwise within the forum’s limitations.
Id. at 829–30 (internal citations omitted).
Here, there were two content-based limitations on
speech: the relevance rule and the rule forbidding
attacks on people and institutions. The relevance rule
was certainly “reasonable in light of the purpose served
by the forum.” Id. at 829 (quoting Cornelius v. NAACP
Legal Defense & Educ. Fund, Inc., 473 U.S. 788, 806
(1985)). We can think of no content-based restriction
more reasonable than asking that content be relevant.
Plaintiffs insist that Mayor Taylor’s preliminary oral
admonition was a ban on mentioning religion, but it is
clear from context that Mayor Taylor was reiterating
the relevance rule.
Next, the relevance rule is viewpoint-neutral.
Plaintiffs argue they were forbidden from discussing
the topic at issue from a religious perspective, but that
is not so. When the government opens a forum to

App. 19
discussion of a certain topic, it is viewpoint
discrimination to ban discussion of that topic from a
religious perspective. Good News Club v. Milford Cent.
Sch., 533 U.S. 98, 108 (2001); Lamb’s Chapel v. Center
Moriches Union Free Sch. Dist., 508 U.S. 384, 392–4
(1993). That is not this case, however, despite
plaintiffs’ protestations to the contrary. Here, the City
Council opened the floor for discussion of whether it
should approve or deny the consent decree—in other
words, to relevant comments. Mayor Taylor allowed
comments mentioning religion or Islam when the
comment was relevant to zoning considerations—for
example, noise and traffic—but not when the comment
was irrelevant—for example, expressing he
commenters’ preference not to live near Muslims.
(Presumably, comments expressing approval of the
consent decree because of a desire to live near Muslims
would have been considered equally irrelevant; no such
comments were attempted.) This restriction is not
viewpoint discrimination. Irrelevant comments of any
sort, from any viewpoint, were out of order. Therefore,
the relevance rule is not constitutionally problematic.
The second rule, which forbade attacks on people or
institutions, is a more difficult case. Certainly, this rule
could be construed as viewpoint discrimination,
although Mayor Taylor testified that the rule does not
forbid “disparaging comment[s],” but rather “making
an attack.” R. 69-14 (Taylor Dep. at 59)
(Page ID #2592). Matal v. Tam does not address speech
in limited public forums, but does at least suggest that
the “attack rule” could be considered viewpoint
discrimination. 137 S. Ct. 1744, 1763 (2017) (stating
that “[g]iving offense is a viewpoint”). But see Am.

App. 20
Freedom Def. Initiative v. Washington Metro. Area
Transit Auth., WMATA, 901 F.3d 356, 364 (D.C. Cir.
2018), cert. denied, 2019 WL 400746 (June 3, 2019)
(“The relevance of [Matal,] in which the Supreme Court
did not engage in a forum analysis at all escapes us;
Matal did not discuss forum doctrine in any depth
because Matal dealt not with the Government
permitting speech on government property but with
government protection of speech from commercial
infringement.”).
We need not address the constitutionality of
Sterling Heights’s no-attack rule, however, because
there is no dispute in the record that plaintiffs’
comments were restricted by the entirely appropriate
relevance rule. Plaintiffs Catcho, Rrasi, Youkhanna,
Jabbo, and McHugh spoke at the Council meeting but
claim that they were “unable to express [their] views
regarding the proposed Consent Judgment agenda
item.” E.g., R. 67-24 (Catcho Decl. at 2) (Page ID
#1863). Each plaintiff had the opportunity to testify as
to what they would have said, absent the speech
restriction, at a deposition. Three—Jabbo, Catcho, and
Youkhanna—would have spoken about their desire not
to live near Muslims because of persecution due to
religious conflict in the Middle East, and in some cases
because of their personal experiences of being
persecuted for practicing Christianity. R. 67-14
(Youkhanna Dep. at 59–60) (Page ID #1796)
(explaining he was prevented from describing the
history of persecution of Christians in the Middle East);
R. 67-17 (Catcho Dep. at 35–36) (Page ID #1813)
(“Q. What is the reason you came? A. I don’ want
[Muslims] to be near me. Q. Why? A. Because they

App. 21
scare me.”); R. 67-18 (Jabbo Dep. at 37) (Page ID
#1819) (“Q. Earlier in the deposition you testified as to
some of the objections you had about the construction
of this mosque, one of them being persecution that your
family members experienced in Iraq by Muslims; is
that right? A. Yes. . . . Q. Now did you express any of
those views at the council meeting . . . ? A. No, because
I was not allowed.”). Although we hold great sympathy
for plaintiffs for any suffering they endured, these
comments were not relevant to the Council’s
consideration of the settlement. Plaintiffs’ comments
boil down to the sentiment that the Council should
have refused zoning permission because plaintiffs do
not want to live near a mosque. The Council cannot
refuse zoning permission on these grounds, consistent
with RLUIPA. That leaves Ms. Rrasi and Ms. McHugh.
During her deposition, Ms. Rrasi said that she wanted
to speak “about religion.” R. 69-20 (Rrasi Dep. at 43)
(Page ID #2959). Ms. McHugh wanted to “address[ ] the
preferential treatment . . . [and] the fact that the AICC
was so quick to go to lawsuit.” R. 67-19 (McHugh Dep.
at 39) (Page ID #1826). Ms. Rrasi’s statement is
entirely vague, and no reasonable jury would be able to
conclude based on it that her speech was restricted—
the Council allowed some comments about religion, and
did not allow others, depending on relevance.
Ms. McHugh’s deposition is befuddling; plaintiffs argue
in their briefs that they wanted to speak from a
religious viewpoint but were prevented from doing so.
We cannot fathom how Ms. McHugh’s desire to
comment on the fact that AICC sued or received
“preferential treatment” was restricted. In sum, of the
plaintiffs who were able to testify with specificity about
the views they were prevented from expressing at the

App. 22
meeting, all stated they wanted to make comments
that were irrelevant. Plaintiffs’ speech was thus
prohibited by the relevance rule alone. The relevance
rule was constitutional, and so plaintiffs’ First
Amendment claims fail.
Plaintiffs’ equal-protection arguments fail for the same
reasons. The City did not, in fact, “grant the use of a
forum to people whose views it finds acceptable, but
deny use to those wishing to express less favored or
more controversial views.” Appellants Br. at 41
(quoting Police Dep’ of the City of Chicago v. Mosley,
408 U.S. 92, 96 (1972)).
D. The Establishment Clause Claim
Plaintiffs’ next claim, that defendants violated the
Establishment Clause, draws from elements of the
discussion above. Plaintiffs argue that the City violated
the Establishment Clause because its actions had the
effect of endorsing Islam. Appellants Br. at 46. They
identify a series of actions that led to an “unmistakable
message of approval of adherents to Islam and
disapproval of those who were not (in particular, the
Chaldean Christians, such as [some of the] Plaintiffs)”:
• “(1) [approval of] the Consent Judgment, which
was not required by RLUIPA, . . . in violation of
the zoning regulations,”
• “(2) [suppression of] speech deemed critical of
Islam during the City Council meeting,”
• and “(3) [the display of] hostility to those who
opposed the building of the mosque at this
meeting.”

App. 23
Appellants Br. at 47. This claim is grounded in
mischaracterizations of the record and already-rejected
arguments, and therefore fails.
First, as we explain above, the Council did not
approve the mosque “in violation of the zoning
regulations.” Second, neither the City nor the Mayor
suppressed speech critical of Islam; they limited
discussion to the topic at hand, and plaintiffs’—or
anyone else’s— views on Islam were largely irrelevant
to the Council’s decision. Finally, plaintiffs cite no cases
standing for the proposition that their individual
perceptions that a government body was displaying
“hostility to” them are sufficient to find an
Establishment Clause violation.
E. The Open Meetings Act Claim and the Fourth
Amendment Claim
Plaintiffs’ final two claims relate to actions the
Mayor and Council took to maintain order during the
meeting. First, they argue that the decision to remove
the audience from Council chambers during
deliberations violated Michigan’s Open Meetings Act.
Second, they argue that the decision to eject plaintiff
Debi Rrasi from the meeting was an unlawful seizure
in violation of the Fourth Amendment. Both arguments
fail.
1. The Open Meetings Act
The Open Meetings Act provides that, in general,
“[a]ll meetings of a public body shall be open to the
public and shall be held in a place available to the
general public. All persons shall be permitted to attend
any meeting except as otherwise provided in this

App. 24
act. . . . However, a public body may establish
reasonable rules and regulations in order to minimize
the possibility of disrupting the meeting.” MICH. COMP.
LAWS § 15.263(1). It requires also that “[a]ll decisions
of a public body shall be made at a meeting open to the
public” and provides that “[a] person shall not be
excluded from a meeting otherwise open to the public
except for a breach of the peace actually committed at
the meeting.” Id. § 15.263(2), (6).
During the meeting at issue, the Mayor and Council
decided to remove the audience from Council chambers
to the vestibule during deliberations. R. 69-25 (WDIV
Video No. 1).10 This happened after public comment
closed and after people in the audience began shouting
over the Council members who were discussing the
agenda item. The press was allowed to stay in the
Council chambers, and audience members could see the
deliberations from the vestibule in which they were
allowed to remain. Id. Deliberations were broadcast
and recorded.
Even assuming the removal of the audience violated
the general provisions of the Act, there was clearly “a
breach of the peace actually committed at the meeting.”
MICH. COMP. LAWS § 15.263(6). The recording of the
meeting shows an audience-wide uproar, and so
removal of the audience followed. We note that a
Michigan court has held already that the City and
Mayor’s actions at this very meeting did not violate the
Open Meetings Act; we agree. R. 69-24 (Naumovski v.

10

https://www.clickondetroit.com/news/sterling-heights-acceptslawsuit-settlement-in-mosque-controversy.

App. 25
City Council of Sterling Heights, No. 2017-0899 at 4–5
(Macomb Cir. Ct. June 2, 2017)) (Page ID #3263–64).
2. The Fourth Amendment Claim
The final issue in this case is the Mayor’s decision
to remove plaintiff Debi Rrasi from the meeting.
Ms. Rrasi brings this claim against both the City and
Mayor Taylor. It fails as to both defendants. Although
we address this claim on the merits, we do not hold
that plaintiffs have cleared the procedural hurdle of
showing municipal liability as to the City, nor do we
hold that Mayor Taylor is unprotected by legislative
immunity.
The undisputed facts regarding Ms. Rrasi’s removal
from the Council meeting are that she approached the
dais and engaged with Mayor Taylor during a recess,
and that she was gesticulating and speaking loudly
while doing so. R. 69-20 (Rrasi Dep. at 47–49) (Page ID
#2963–65); R. 69-14 (Taylor Dep. at 101–02) (Page ID
#2634–35). Mayor Taylor asked the police to escort her
out, and at least two police officers executed the order.
R. 69-14 (Taylor Dep. at 102–03) (Page ID #2635–36).
While leaving the Council chamber, Ms. Rrasi stopped,
turned around, and started yelling at the Council.
R. 69-20 (Rrasi Dep. at 53) (Page ID #2969). At some
point during the process of escorting Ms. Rrasi from the
building, one of the officers “grabbed [her] arm so [she]
could leave,” “tapped [her],” “held [her] hand all the
way till [sic] [she] got to the doors,” and “was pushing
[her] out the door basically. That’s how [she] felt.” Id.
at 51, 53–54 (Page ID #2967, 2969–70). She was
removed from the building but not otherwise detained.
Id. at 51 (Page ID #2967). Ms. Rasi asserts that she did

App. 26
not feel “free to leave at [her] own will” during this
encounter. Id. at 50 (Page ID #2966).
Ms. Rrasi argues that she was seized the moment
that Mayor Taylor ordered her out of the Council
chambers, but that is not so. In fact, Ms. Rrasi was not
seized at all. Although she asserts that she did not feel
“free to leave” during this encounter, “the Supreme
Court has recognized [that] the ‘free to leave’ test may
not be the best measure of a seizure where a person
has no desire to leave the location of a challenged police
encounter.” Salmon v. Blesser, 802 F.3d 249, 253 (2d
Cir. 2015). Indeed, the “free to leave” test is hardly
applicable in this situation, where Ms. Rrasi wished to
remain rather than leave. In Florida v. Bostick, the
Supreme Court held that “whether a reasonable person
would feel free to decline the officers’ requests or
otherwise terminate the encounter” was an appropriate
test to determine whether a seizure occurred when
someone was asked for consent to search his bag while
on a bus that he did not want to exit. 501 U.S. 429,
434–36 (1991). Bostick, however, is equally
inapplicable. Officers were not asking Ms. Rrasi for
consent or engaging in a voluntary interaction with
her; rather, they were ordering her to leave a place she
wanted to be.
The Second Circuit addressed a similar situation in
Salmon v. Blesser, in which a man was ordered out of
a courthouse and eventually violently ejected. Salmon,
802 F.3d at 251. There, it was held that when police
officers “order persons to leave public areas . . . such
police conduct, without more, [is not] a seizure under
the Fourth Amendment as long as the person is

App. 27
otherwise free to go where he wishes.” Id. at 253. This
is true even if “police . . . take a person by the elbow or
employ comparable guiding force short of actual
restraint to ensure obedience with a departure order.”
Id. A person is seized, however, if officers use force
beyond “guiding force,” force that is “painful” and not
necessitated by “resistance” on the part of the person
being rejected. Id. at 254.
We are inclined to agree with the Second Circuit, at
least in circumstances where the person being asked to
leave is not privileged to remain in the space—either
because the space is no longer open to the public (for
example, a building is closing or the space must be
cleared of all people for safety reasons) or because the
person’s behavior violated a rule, ordinance, or law (for
example, by causing a disturbance). Cf. Bennett v. City
of Eastpointe, 410 F.3d 810, 834 (6th Cir. 2005)
(holding that a police officer who ordered bicycle riders
to leave an affluent suburb and escorted them across
the municipal boundary had conducted a seizure).
Here, Ms. Rrasi lost her privilege to remain in the
otherwise-public meeting. First, Mayor Taylor made
clear during the meeting that citizens were allowed to
address the Council only once, and admonished people
attempting to speak for a second time. Ms. Rrasi’s
attempt to address the Council for a second time thus
violated Council rules. Furthermore, this is not an
instance of a citizen attempting to engage in dialogue
with a public official during an otherwise-quiet
moment. The recess during which Ms. Rrasi
approached Mayor Taylor was called because the
audience was yelling and disrupting deliberations. It
was called for the purpose of restoring order, and

App. 28
Ms. Rrasi’s behavior, which undisputedly involved loud
speech and gesticulation, contributed to the disruption.
It is common sense that a government body should be
allowed to remove people who are disrupting a public
meeting, and the Michigan Open Meetings Act allows
for such a removal. Appellees Br. at 42.
Ms. Rrasi lost her privilege to remain in the public
meeting because of her behavior. Her description of the
force used by officers to escort her out—holding her
hand or arm, tapping her—does not exceed guiding
force, especially in light of her mid-exit refusal to leave
the Council chambers. There was certainly no painful
force, and Ms. Rrasi’s freedom was unrestricted once
she exited the building. Because there was no seizure,
Ms. Rrasi’s Fourth Amendment rights were not
violated, and summary judgment in favor of defendants
was appropriate.
As a final point, and to avoid confusion, we address
the fact that Ms. Rrasi insists on characterizing this
action as Mayor Taylor retaliating against her based on
the content of her speech. Ms. Rrasi did not pursue on
appeal the First Amendment retaliation claim stated in
her complaint. Furthermore, there is no evidence in the
record supporting the retaliation allegations.
III. CONCLUSION
For the reasons discussed above, we AFFIRM.

App. 29

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No.: 17-cv-10787
Honorable Gershwin A. Drain
[Filed August 1, 2018]
_______________________________________
KAMAL ANWIYA YOUKHANNA, et al., )
)
Plaintiffs,
)
)
v.
)
)
CITY OF STERLING HEIGHTS, et al., )
)
Defendant.
)
______________________________________ )
OPINION AND ORDER GRANTING
DEFENDANTS’ MOTION FOR SUMMARY
JUDGMENT[#69] AND DENYING PLAINTIFFS’
MOTION FOR SUMMARY JUDGMENT [#67]
I.

INTRODUCTION

Presently before the Court are the parties’ cross
motions for Summary Judgment. These matters are
fully briefed and a hearing was held on May 7, 2018.
For the reasons that follow, the Court will grant the

App. 30
Defendants’ Motion for Summary Judgment and will
deny the Plaintiffs’ Motion for Summary Judgment.
II.

FACTUAL BACKGROUND

The instant dispute stems from the American
Islamic Community Center, Inc.’s (“AICC”) attempt to
build a mosque in the City of Sterling Heights, which
permits places of worship and religious community
centers in residential zoned (R-60) areas through
special land use.
In 2015, the AICC applied for a special land use
with the City to build a mosque on Fifteen Mile Road
between Ryan Road and Mound Road. After working
with then City Planner Donald Mende for
approximately one year, the AICC appeared at a public
hearing before the City’s Planning Commission on
August 13, 2015, seeking approval of its application. At
the meeting, Mende reported that the application met
all of the objective standards set forth in the zoning
code. He indicated that the mosque would cover
approximately 11% of the property, well under the 30%
limit on R-60 zoned property, the height of the
mosque’s dome and spires complied with the zoning
code, and the proposed 130 parking spaces exceeded
the required 109 spaces. Mende further reported that
the location of the mosque on a major thoroughfare was
also appropriate.
Mende next discussed whether the discretionary
standards of the zoning code had been met. This
included consideration of the paint to be used, that no
audio devices would be used outside of the building,
allowance of future liquor sales at nearby businesses,

App. 31
and limiting use of the multi-purpose room to AICC
members only. He further discussed that increased
traffic was not a concern because “[t]he average traffic
counts [sic] at this location is approximately 11,000
vehicles per day, which is actually average for major
roads” and that “accidents have actually been steadily
decreased since 2011.” Mende recommended that the
AICC’s application be approved.
The Commission thereafter took public comments.
Audience members raised concerns about traffic, size,
use of the building, and safety. During deliberations,
Commissioner Jeffrey Norgrove, also a Plaintiff herein,
indicated that he was thinking of asking for a “full
impact study with socioeconomic numbers” and stated
that “I’m not exactly comfortable with making this
decision tonight after everything I’ve heard.”
Commissioner Jerry Rowe suggested a postponement
to allow the AICC to “review the scale of the building.”
Commissioner Stephan Milltello challenged the
postponement stating that “I would be against
[postponing] . . . [I]f this was a church, a Catholic
Church or anything else, we wouldn’t be, we wouldn’t
[need a postponement].” The Commission then voted 6
to 1 to postpone the matter.
On September 10, 2015, the AICC appeared again
at another public hearing before the Commission,
seeking approval of its Application based on revised
plans submitted to the City following the August 13,
2015 meeting. Over 200 people attended this meeting
and, before the meeting, many of them engaged in
protests outside of City Hall against the building of the
mosque. At the meeting, Mende reported that the AICC

App. 32
had agreed to reduce the height of the mosque’s spires
by approximately 13% and increase the size of the
dome by 12%. At the meeting’s conclusion, Plaintiff
Norgrove made a motion to deny the AICC’s application
based on the following discretionary standards set forth
in §25.02 of the zoning code: the location and height of
the mosque interferes with and discourages the
appropriate development and use of adjacent land and
buildings, lack of size compatibility with established
long term development patterns, a likely shortage of
off-street parking when the principal and ancillary uses
are combined, additional parking spaces are required,
and the scale of the mosque is not harmonious with the
neighboring areas. The Commission then voted to deny
the application.
The AICC disagreed with the Commission’s
decision, essentially claiming that the denial was
pretext and was truly based upon religious
discrimination. Thereafter, the AICC filed a lawsuit
against the City alleging, among other things, multiple
violations of the Religious Land Use and
Institutionalized Persons Act (“RLUIPA”), 42 U.S.C.
§ 2000c, et. seq., as well as violation of the AICC’s First
Amendment right to the free exercise of religion.
The United States Department of Justice (“DOJ”)
also investigated the denial of the application and filed
a lawsuit alleging the Commission’s decision violated
the RLUIPA and discriminated against the AICC. The
DOJ further alleged that Plaintiff Norgrove attended
an anti-mosque protest on August 30, 2015 and
improperly influenced the other Commissioners due to
his alleged bias against Muslims. In addition, the DOJ

App. 33
asserted that Plaintiff Norgrove opposed the
construction of a different mosque in 2011 and posted
anti-Islamic statements on his social media stating:
“Oh no the terrorists are gonna attack, according to the
media this weekend. Come to the Detroit area. They
don’t [sic] bomb their revenue source.” The DOJ also
claimed that Norgrove shared a picture of a pig with
the statement “share this pig if your [sic] not
celebrating Ramadan [sic].” Finally, the DOJ
maintained that Norgrove contacted Commissioners
between the first and second meetings and informed
them that he would be making a motion to deny the
application.
The City’s answer to the complaints denied any
wrongdoing, maintaining that the decision by the
Commission was based on legitimate land use
concerns. The parties participated in facilitation with
Magistrate Judge Anthony Patti. With the Magistrate
Judge’s assistance, the parties fashioned a potential
resolution of the lawsuits taking into consideration the
issues raised by the Commission, as well as balancing
the AICC’s right to free exercise of religion.
The potential resolution was proposed to the City
Council at its February 21, 2017 meeting. More than
240 people attended the meeting, which exceeded the
capacity of Council Chambers so the City added seating
in the vestibule located outside of the Chambers. The
City employed a “one in, one out” procedure to allow
audience members to rotate into the Chambers to
provide their comments. Due to the size of the
audience, Mayor Michael Taylor, a named Defendant
in these proceedings, proposed that speaking time be

App. 34
limited to two minutes per person so that everyone
present would have an opportunity to speak. The
vestibule area outside of Chambers had windows
through which audience members could watch the
meeting and televisions on which the meeting was
broadcast live.
The meeting began with the City’s Attorney, Ann
McClorey McLaughlin, who explained the terms of the
Consent Judgment and the concessions received. See
Defs.’ Mot. for Summ. J., Ex. L, 2/21/17 Mtg. Video at
1:42:00-48:06). Specifically, she indicated that the
Consent Judgment would approve a special land use to
build the mosque in the City and that the AICC agreed
to reduce the height of the mosque’s dome and spires,
to provide off-site parking and shuttling for events
exceeding available on-site parking, and not to use any
outdoor sound projection or call to prayer. Id.
McLaughlin further explained that the Consent
Judgment required that the dome be painted with nonreflective paint, that all religious activities be
conducted indoors, and affirmed the City’s ability to
institute permit parking on surrounding residential
streets and to enforce parking ordinances. Id. She
noted that the City was not admitting liability and that
by resolving the matter now, the City could control the
situation rather than leaving it to a judge or jury to
decide. Id.
After McLaughlin concluded her comments,
Defendant Taylor opened the floor for public comment,
having previously provided the following explanation of
the City’s Rules:

App. 35
We have 181 seats, I believe, in this Council
Chamber; every seat is taken (save for maybe
one or two) and we also have overflow of at least
25 to 30 or more in the vestibule. So, it is
currently 9:07 p.m. . . we have other agenda
items to get to on the agenda tonight aside from
this . . . . Our Council Rules allow for us to
reduce the speaker time limit and judging by the
size of the crowd unless there is objection from
Council, I recommend reducing the speaker time
on this item only to two minutes . . . . Speakers
will be required to stay on point. Your comments
during this agenda item must be related to this
agenda item. This agenda item is to consider
settlements, consent order, and consent
judgments in these two cases . . . . If you fail to
abide by the Council’s Rules, you will be called
out of order . . . and you will be asked to go back
to your seat. If you do not go back to your seat,
we will recess and you will be removed from the
auditorium. So please don’t make us do that . . . .
Outbursts from the audience can be grounds for
being called out of order . . . . So again, let’s just
please be as respectful as we can of each person.
We do not need any comments about anybody’s
religion, that is not the purpose of this meeting
tonight and any comments regarding other
religions or disagreements with religions will be
called out of order. It’s simply not relevant to
what’s going on tonight.
Id. at 1:37:49-41:02. Despite Defendant Taylor’s ground
rules, there were twenty-six outbursts by audience
members, both individually and as a body, forcing

App. 36
multiple recesses. The outbursts included people
speaking out of turn, shouting, applauding, and other
disruptive behavior, including attacks on Islam and the
AICC for being “terrorists” and wanting to “destroy the
American Constitution.” Id. at 2:20:35-21:14,2:32:5433:43.
With respect to the Plaintiffs herein, all of the
Plaintiffs who were in attendance were permitted to
speak uninterrupted and none of the Plaintiffs chose to
utilize their full two-minute speaking time. Id. at
1:52:37-53:48, 1:53:54-55:27. 1:59:05-37, 2:03:11-41,
2:59:00-25. After every audience member who wished
to speak was heard, a motion was made by Councilman
Douglas Skrzniarz to approve the Consent Judgment.
Id. at 3:04:09-54. During Council’s deliberation, the
audience began screaming at Councilman Skrzniarz,
mid-sentence, forcing another recess. Id. at 3:04:5608:13.
When Defendant Taylor was in the process of
calling this recess, Plaintiff Rrasi approached the dais
and began speaking loudly at Defendant Taylor.
Defendant Taylor has specifically testified that
Plaintiff Rrasi “came close to the council diaz [sic] and
was making gestures with her hands, making
threatening comments, and was being disruptive . . . I
was trying to do my best to maintain order in there,
and in a split second I recall Debi coming up, making
a threatening gesture, coming towards the council
table, and I believe I asked that the police officer to
escort her out.” See Taylor Dep. at 101:2-5; 102:10-15.
After Defendant Taylor asked that she be escorted out
of Council Chambers, Plaintiff Rrasi began yelling at

App. 37
him because she was mad. Because she refused to leave
chambers, the officer proceeded to escort her out of the
room. See Rrasi Dep. at 53:14-18, 54:1-25; 55:1-2.
Upon returning from recess, Defendant Taylor
warned the audience that any more interruptions
would require him to clear Chambers to allow Council
to conclude the agenda item. Ignoring his warning, the
audience members continued to interrupt the meeting
multiple times. As a result, Defendant Taylor called
another recess and ordered that all audience members
except for the press be removed to the vestibule where
they could view the proceedings. Council returned from
recess and voted to approve the Consent Judgment.
Thereafter, Plaintiffs filed the instant action
against the City and Taylor claiming that the Consent
Judgment was approved in violation of the City’s
Zoning Code and Michigan law. They also assert
violations under the Due Process, Equal Protection and
Establishment Clauses and the First Amendment.
Plaintiff Rrasi has also alleged a Fourth Amendment
unlawful seizure claim.
III.

LAW & ANALYSIS
A. Standard of Review

Federal Rule of Civil Procedure 56(a) “directs that
summary judgment shall be granted if there is no
genuine issue as to any material fact and that the
moving party is entitled to a judgment as a matter of
law.” Cehrs v. Ne. Ohio Alzheimer’s Research Ctr., 155
F.3d 775, 779 (6th Cir. 1998) (quotations omitted). The
court must view the facts, and draw reasonable
inferences from those facts, in the light most favorable

App. 38
to the non-moving party. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 255, 106 S.Ct. 2505, 91 L.Ed.2d 202
(1986). No genuine dispute of material fact exists
where the record “taken as a whole could not lead a
rational trier of fact to find for the non-moving party.”
Matsushita Elec. Indus., Co. v. Zenith Radio Corp., 475
U.S. 574, 587, 106 S.Ct. 1348, 89 L.Ed.2d 538 (1986).
Ultimately, the court evaluates “whether the evidence
presents a sufficient disagreement to require
submission to a jury or whether it is so one-sided that
one party must prevail as a matter of law.” Anderson,
477 U.S. at 251–52, 106 S.Ct. 2505.
B. Validity of the Consent Judgment
1. The City’s Zoning Code and the
Michigan Zoning Enabling Act (“MZEA”)
The crux of Plaintiffs’ Complaint is that the
approval of the Consent Judgment should be
invalidated because the Council purportedly failed to
abide by the City’s Zoning Code by neglecting to
consider the discretionary standards set forth in
§ 25.02. Plaintiffs’ further assert that the Consent
Judgment should be invalidated because the City did
not comply with the notice requirements under the
MZEA. Both of Plaintiffs’ arguments are without merit.
Plaintiffs’ first argument rests on the theory that
the terms “reviewing authority” and “approving
authority” are used interchangeably in the Zoning
Code. The relevant provisions state that:
When the City Council is the reviewing
authority with respect to a special land use, it

App. 39
shall have the same reviewing authority and
shall consider the same standards of the
Planning Commission under the special
approval land use criteria applicable to such use
in a particular zoning district and Article 25.
Zoning Code, § 25.01(C). Thus, the Zoning Code
unambiguously requires the City Council to consider
the discretionary standards with respect to a special
land use application when it is the “reviewing
authority.” Conversely, when City Council is
designated the “approving authority” only, the Zoning
Code is silent with respect to the same requirement to
consider the discretionary standards under the Code.
Id. at § 25.01(A)(4) (stating that the City Council shall
be the approving authority with respect to special
approval land use pursuant to a consent judgment).
Plaintiffs have cited no provision in the Code which
designates the Council as the reviewing authority when
it approves a special land use by consent judgment to
settle pending litigation. In fact, Plaintiff Norgrove, a
former Commissioner, has testified that there is a
distinction between the terms approving authority and
reviewing authority under the Zoning Code. Plaintiffs’
reliance on § 25.03(A)(2) in support of their position is
unavailing because this provision is only applicable
when the Council is the “reviewing authority.” Id. at
§25.03(A)(2).
Plaintiffs’ position is further undermined by the fact
that §25.01 has been amended. The former version of
the section stated that “[t]he City Council shall be the
reviewing authority with respect to a special approval
land use which is requested pursuant to a Planned

App. 40
Unit Development project, a conditional rezoning, or
consent judgment . . . .” 2005 Zoning Code, § 25.01. The
Code current iteration of this section removes Council
as the reviewing authority over the settlement of
lawsuits by consent judgment, adopting the current
language of the Code. 2009 Zoning Code, § 25.01. This
change effectively removed the requirement that
Council consider subjective standards set forth in
§ 25.02 before granting a special land use by consent
judgment. This court must enforce the current Zoning
Code as written and may not read words into the
ordinance or read into the ordinance authority above
and beyond the express authority conferred. See
Brandon Charter Twp. v. Tippett, 241 Mich. App. 417,
616 N.W.2d 243 (2000).
In support of their position, Plaintiffs continue to
rely upon League of Residential Neighborhood
Advocates v. Cty. of Los Angeles, 498 F.3d 1052
(9th Cir. 2007), in support of their position. However,
in League of Residential Neighborhood Advocates, the
City of Los Angeles’s Zoning Code did not permit the
City Council to approve a special land use as part of a
Consent Judgment. In contrast, the City Council of
Sterling Heights is permitted to approve a special land
use by consent judgment. League of Residential
Neighborhood Advocates has no bearing on the instant
dispute.
Additionally, Plaintiffs also rely on Pentecostal
Church of God v. Douglas Cnty., No. 3:16-CV-00400LRH-WGC, 2018 WL 1611184 (D. Nev. Apr. 2, 2018),
which is connected to their argument that the Consent
Judgment is invalid under League of Residential

App. 41
Neighborhood Advocates. This argument is likewise
without merit. Pentecostal Church of God is
distinguishable from the instant matter because in that
case there was no suggestion of religious animus in the
decision to deny a special land use for a church.
Conversely, the AICC and the DOJ lawsuits alleged
that then Planning Commissioner, Plaintiff Norgrove,
made anti-Islamic posts on the internet, previously
opposed the construction of another mosque, attended
an anti-mosque protest, and contacted other Planning
Commissioners prior to the vote to approve the mosque
to inform them he would be making a motion to deny
the AICC’s application. As such, Norgrove’s conduct
placed the City at risk of being found to have violated
federal law. As such, there is no merit to Plaintiffs’
reliance on this authority.
Plaintiffs further claim that the City violated the
MZEA because it failed to give proper notice of the
February 21, 2017 meeting’s agenda item. However,
Plaintiffs read a key word out of the statute, which
states that notice is only required when an
“application” for special land use is filed. While an
application was filed by the AICC, the City did comply
with MZEA because it conducted two public hearings
on the application and denied it. The Consent
Judgment was a settlement of the subsequent lawsuits
filed by the AICC and DOJ stemming from the
Commission’s denial of the application. Moreover, the
Zoning Code expressly provides that a public hearing
is not required when Council approves a special land
use by consent judgment to settle pending litigation.
Zoning Code, § 25.03(A)(3)(b).

App. 42
Accordingly, because the Consent Judgment was not
approved in violation of the Zoning Code or the MZEA,
summary judgment is appropriate on Plaintiffs’
Declaratory Judgment claim.
2. Michigan Open Meetings Act (“OMA”)
Plaintiffs also seek to invalidate the approval of the
Consent Judgment by claiming the City violated the
OMA by removing audience members during the
meeting. This claim is also due to be denied.
The OMA provides “[a]ll meetings of a public body
shall be open to the public and shall be held in a place
available to the general public.” MICH. COMP. LAWS
§ 15.263(1). Also, “a public body may establish
reasonable rules and regulations in order to minimize
the possibility of disrupting the meeting.” Id. A person
can be excluded from a meeting due to “a breach of the
peace actually committed at the meeting.” Id. at
§ 15.263(6). Lastly, a council may limit the amount of
time that each person can speak at a meeting. Id.
§ 15.263(5).
Consistent with the OMA, the City’s rules state that
“[n]o comments shall be made from another location,
and anyone making ‘out of order’ comments may be
subject to removal from the meeting.” Moreover, [t]here
will be no demonstrations during or at the conclusion
of anyone’s remarks or presentation,” and “[t]hese rules
are intended to promote an orderly system of holding a
public hearing, to give every person an opportunity to
be heard, and to ensure that no individual is
embarrassed by exercising his or her right of free
speech.” Rules at 7. The rules also provide that “[a]

App. 43
person may be called to order by the Chair or any
Council member for failing to be germane to the
business of the City, for use of vulgarity, for a personal
attack on persons or institutions . . . .” Rules at 5.
Lastly, Robert’s Rules of Order govern City Council
meetings to the extent they do not conflict with City’s
rules. As such, pursuant to Robert’s Rules, the Council
has the right to remove a person from the meeting.
In the instant case, the Mayor removed audience
members only after public comment was completed and
26 interruptions, several warnings, and 3 forced
recesses so that Council could conclude the agenda
item. The removed audience members were permitted
to watch the remainder of the agenda item and live
vote through the windows and on television in the
vestibule of chambers. Moreover, the entire meeting
was streamed live on the City’s website and YouTube
channel and was broadcast live on cable television. To
the extent that Plaintiffs suggest that the Council
conducted its vote in secret, the evidence before this
Court shows otherwise. Plaintiffs have failed to come
forward to demonstrate that the OMA was violated.
Under the OMA, the City was authorized to remove the
unruly and disruptive audience members without
turning the vote on the Consent Judgment into a secret
vote. Defendants, as opposed to Plaintiffs, are likewise
entitled to summary judgment on this issue.
B. Due Process
Plaintiffs further argue that because of the “alleged
failure to provide proper notice and an opportunity to
be heard, Defendants deprived Plaintiffs of their right
to due process.” However, Plaintiffs have alleged no

App. 44
cognizable property interest. In order to have a
protected property interest, “one must possess more
than a unilateral expectation to the claimed interest;
the claimant must have a legitimate claim of
entitlement.” York v. Civil Serv. Comm’n, 263 Mich.
App. 694, 689 N.W.2d 533, 539 (2004). Yet, even
neighboring landowners do not have a legally protected
property interest with respect to claims of increased
traffic and generalized aesthetic and economic loss.
See, e.g., Unger v. Forest Home Twp., 65 Mich. App.
614, 237 N.W.2d 582, 584 (1975).
Here, Plaintiffs Norgrove, Jabbo, Catcho, and Rrasi
do not own property near the location of the proposed
mosque. While Youkhanna and McHugh own real
property ¾ of a mile and 3 miles away from the site of
the proposed mosque, there is no evidence that they
have been deprived of any interest in that property, or,
if they were, that the alleged deprivation is anything
other than generalized, unsupported grievances
concerning traffic and loss of aesthetic and economic
value.
Plaintiffs are not entitled to summary judgment on
Plaintiffs’ Due Process claim. Rather, Defendants are
entitled to summary judgment on Plaintiffs’ Due
Process claim.
C. First Amendment and Equal Protection
Plaintiffs next argue that their speech was
improperly restricted and that they were treated
differently under the City’s rules. Because their claim
involves an intersection of the First Amendment and
the Equal Protection Clause, the United Supreme

App. 45
Court has instructed courts to decide both claims under
a First Amendment analysis. R.A.V. v. City of St. Paul,
Minn., 505 U.S. 377, 384 n.4 (1992).
Specifically, Plaintiffs claim their speech was
impermissibly chilled when they and other audience
members were limited to a two-minute speaking time,
prevented from speaking critically of the Islamic faith,
and removed from the meeting for being disruptive.
However, “[t]he First Amendment does not guarantee
persons the right to communicate their views at all
times or in any manner that may be desired.” Heffron
v. Int’l Soc’y for Krishna Consciousness, 452 U.S. 640,
647 (1981). When the government designates a limited
public forum for speech, as is the case of a city council
meeting, it may apply restrictions to the time, place,
and manner of speech so long as those restrictions “are
content-neutral, are narrowly tailored to serve a
significant government interest, and leave open ample
alternative channels of communication.” Jobe v. City of
Catlettsburg, 409 F.3d 261, 266 (6th Cir. 2005).
In Lowery v. Jefferson Cnty. Bd. of Educ., 586 F.3d
427 (6th Cir. 2009), the United States Court of Appeals
for the Sixth Circuit considered whether a school board
policy was content-neutral and narrowly tailored to
serve a significant government interest. Under the
policy, persons were allowed to apply to speak and they
would be permitted to speak for a maximum of five
minutes provided the content of their speech was “not
frivolous, repetitive, nor harassing.” Id. at 433. The
Sixth Circuit held that the policy was both contentneutral and narrowly tailored:

App. 46
The policy’s stated justifications include:
allow[ing] everyone a fair and adequate
opportunity to be heard;” “assur[ing] that the
regular agenda of the Board is completed,” and
“recogniz[ing] the voluntary nature of the
Board[‘s]time and us[ing] that time efficiently.”
Each of these justifications has nothing to do
with the subject of an individual’s proposed
speech and everything to do with conducting
orderly, productive meetings. The school board’s
policy is narrowly tailored because it prohibits
speech only when it is “repetitive,” “harassing”
or “frivolous.”
Id. Courts have recognized that a person may be
entirely excluded from a limited public forum without
violating the Constitution when the person is
disruptive or wishes to speak on a topic not
encompassed within the purpose of the forum. See, e.g.,
Freedom from Religion Found., Inc. v. City of Warren,
873 F. Supp.2d 850, 863 (E.D. Mich. 2012); Beaton v.
City of Allen Park, No. 14-CV-13590, 2015 WL 3604951
(E.D. Mich. 2015); Jones v. Heyman, 888 F.2d 1328,
1333 (11th Cir. 1989). Lastly, alternative channels of
communication need not be the best means of
communication if the intended audience can still be
reached. Phelps-Roper v. Strickland, 539 F.3d 356, 37273 (6th Cir. 2008).
In this case, the purpose of the February 21, 2017
meeting was to discuss the approval of the Consent
Judgment, thus comments about Islam were irrelevant
to the discussion before the Council. Moreover,
Defendant Taylor indicated at the outset that

App. 47
commentary regarding anyone’s religion was not
relevant to whether the Consent Judgment should be
approved and the reason for the speaking limitation
and removal provision was to maintain order and to
ensure that all audience members wishing to speak had
the opportunity to do so. As such, Plaintiffs have failed
to come forward with any evidence that the City’s rules
were not content-neutral or narrowly tailored.
Additionally, Plaintiffs had ample alternative
channels of communication. The City established a
location just outside City Hall, where individuals,
including the Plaintiffs, could gather and express their
opinions and concerns about individuals who practice
Islam, terrorism and other views not germane to
whether the Consent Judgment should be approved.
Lastly, the contact information for each
Councilmember is available on the City’s website and
Plaintiffs were able to contact the members to express
their views.
For these reasons, Defendants are likewise entitled
to the summary judgment on Plaintiffs’ First
Amendment and Equal Protection Clause claims.
D. Fourth Amendment
Plaintiff Rrasi claims that her Fourth Amendment
rights were violated when she was removed from the
City Council meeting. As an initial matter, the
February 21, 2017 meeting was a limited public forum
and Defendant Taylor was allowed to restrict nongermane speech and remove individuals who were
being disruptive without violating the Constitution.
Moreover, interference with a city official during the

App. 48
performance of official duties is a misdemeanor offense.
See City Ordinance, §35-16(M).
Here, the record reveals that Plaintiff Rrasi
approached the dais and used gestures in a threatening
manner. She was escorted out of Chambers when she
refused to leave after being called out of order by
Defendant Taylor. As such, there was no unlawful
seizure under the facts of this case. In any event, even
if an unlawful seizure occurred, Defendant Taylor
would be entitled to immunity because he was engaged
in a legislative activity. See Hogan v. Twp. of Haddon,
278 F. App’x 98, 104 (3d Cir. 2008). Summary
judgment is therefore denied to the Plaintiffs on this
claim and granted in favor of the Defendants.
E. Establishment Clause
Lastly, Plaintiffs’ Establishment Clause claim is
without merit and Defendants are entitled to summary
judgment in their favor. The law is well settled that
“[s]ince the advent of zoning, churches have been held
proper in residential districts” and that “[t]he concerns
underlying the Establishment Clause arise not when
religion is allowed by government to exist or even
flourish, but when government sets a religious agenda
or becomes actively involved in religious activity.”
Boyajian v. Gatzunis, 212 F.3d 1, 9-10 (1st Cir. 2000)
(internal quotation marks and citations omitted).
Government action does not violate the
Establishment Clause where it has a secular legislative
purpose, its principal or primary effect neither
advances nor inhibits religion by conveying a message
that the government was endorsing a religion, and it

App. 49
does not foster an excessive government entanglement
with religion. Smith v. Jefferson Cty. Bd. of Sch.
Comm’rs, 788 F.3d 580, 590 (6th Cir. 2015) (citing
Lemon v. Kurtzman, 403 U.S. 602, 612-13 (1971) and
Lynch v Donnelly, 465 U.S. 668, 690 (1984) (O’Connor
J. concurring). When determining the purpose of
government action or the effect of its implementation,
the court must view the evidence from the perspective
of a reasonable observer. Smith, 788 F.3d at 590. The
reasonable observer is deemed aware of the history and
context of the community as well as the context in
which the challenged government activity took place.
Id.
Based on the evidence, the Court is compelled to
conclude that a reasonable observer would know that
the purpose of the speech restrictions at the Council
meeting were designed to facilitate an orderly and
productive meeting that permitted all audience
members an opportunity to speak on whether the
Consent Judgment should be approved. The purpose of
the Consent Judgment was to permit the AICC the free
exercise of religion through a special land use and to
resolve pending litigation against the City. Moreover,
the City has no connection to the AICC or the proposed
mosque, thus there is no entanglement with Islam.
Here, the City did not violate the Establishment Clause
by enabling the AICC’s members the free exercise of
religion by approving the Consent Judgment and
thereby permitting a special land use for the
construction of the mosque.

App. 50
IV.

CONCLUSION

Accordingly, for the reasons articulated above,
Defendants’ Motion for Summary Judgment [#69] is
GRANTED.
Plaintiffs’ Motion for Summary Judgment [#67] is
DENIED.
SO ORDERED.
Dated: August 1, 2018
/s/Gershwin A. Drain
GERSHWIN A. DRAIN
United States District Judge

CERTIFICATE OF SERVICE
Copies of this Order were served upon attorneys of
record on August 1, 2018, by electronic and/or
ordinary mail.
/s/ Tanya Bankston
Deputy Clerk

App. 51
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No.: 17-cv-10787
Honorable Gershwin A. Drain
[Filed August 01, 2018]
______________________________________
KAMAL ANWIYA YOUKHANNA, et al., )
)
Plaintiffs,
)
)
v.
)
)
CITY OF STERLING HEIGHTS, et al., )
)
Defendants.
)
______________________________________ )
JUDGMENT
Pursuant to the Opinion and Order entered on this
date; judgment is hereby entered in favor of the
Defendants and against the Plaintiffs.
SO ORDERED.
Dated: August 1, 2018
/s/Gershwin A. Drain
GERSHWIN A. DRAIN
United States District Judge

App. 52
CERTIFICATE OF SERVICE
Copies of this Order were served upon attorneys of
record on August 1, 2018, by electronic and/or
ordinary mail.
/s/ Tanya Bankston
Deputy Clerk

App. 53

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-1874
[Filed September 10, 2019]
_____________________________________________
KAMAL ANWIYA YOUKHANNA;
)
WAFA CATCHO; MAREY JABBO;
)
DEBI RRASI; JEFFREY NORGROVE;
)
MEGAN MCHUGH,
)
)
Plaintiffs-Appellants,
)
)
v.
)
)
CITY OF STERLING HEIGHTS;
)
MICHAEL C. TAYLOR INDIVIDUALLY AND )
IN HIS OFFICIAL CAPACITY AS MAYOR,
)
CITY OF STERLING HEIGHTS, MICHIGAN, )
)
Defendants-Appellees.
)
____________________________________________ )
BEFORE: MERRITT, MOORE, and WHITE,
Circuit Judge.
ORDER
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the

App. 54
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
s/

Deborah S. Hunt, Clerk

